March 30, 2007

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA

SUBJECT: Audit Report – Address Management System
         Information – Southeast Area (Report Number DR-AR-07-002)

This report presents the results of our self-initiated audit of the Address Management
System (AMS) information in the Southeast Area (Project Number 07XG010DR000).
This is one in a series of reports on AMS information. We will include the information in
this report in a nationwide capping report assessing the management of AMS
information. Our objective was to assess the U.S. Postal Service’s management of
delivery AMS quality review results to ensure that address information is correct and
complete for effective processing and delivery of mail in the Southeast Area.

Postal Service officials in the Southeast Area’s Central Florida and South Florida
Districts effectively managed delivery of AMS quality review results for approximately
59 percent (4,269 of 7,217) of their routes according to Postal Service guidelines.
However, opportunities exist for area officials to implement best practices from the New
York Metro Area’s New York District to improve the quality of AMS data to process and
deliver the mail. Approximately 33,056 AMS data errors may exist in these two districts
on the 2,948 routes for which street reviews were not conducted. If Southeast Area
officials implemented a program similar to the New York District’s, they could reduce
errors by 31.84 percent, saving the Postal Service $862,134 over the next 10 years.
We will report $862,134 of funds put to better use in our Semiannual Report to
Congress.

For fiscal years (FY) 2005 and 2006, Southeast Area districts improved their Delivery
Point Sequence (DPS) mail volume percentages. According to the Transformation
Plan, the Postal Service’s goal is to sort 95 percent of letters by DPS by 2010. A
decrease in AMS data errors will help Southeast Area officials achieve the DPS goal of
95 percent and will reduce operating costs.

We recommended the Vice President, Southeast Area, implement an AMS quality
review program similar to the New York District’s that provides training to delivery
supervisors or their designees to conduct AMS quality street reviews and establishes an
annual district schedule of AMS quality street reviews. We also recommended
implementing a program that directs delivery supervisors or their designees to review
delivery routes annually and establishes a tracking system for completed street reviews.
Management agreed in principle with our findings and recommendations and has
initiatives planned addressing the issues in this report. However, officials stated they
could not validate the actual savings amount of $862,134 in funds put to better use.
Management’s comments and our evaluation of these comments are in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy A. Ainsworth
    Charles E. Bravo
    Steve M. Dearing
    Deborah A. Kendall
Address Management System Information –                                                            DR-AR-07-002
 Southeast Area



                                            INTRODUCTION
    Background                    Address management is the foundation for how the U.S.
                                  Postal Service moves mail. Over the years, the Postal
                                  Service has worked to obtain the highest quality address
                                  information possible for internal use and for its customers.
                                  In March 1993, the Postal Service implemented Delivery
                                  Point Sequence (DPS).1 DPS is the process of arranging
                                  barcoded mail according to the carrier’s line of travel (LOT)
                                  to eliminate manual mail sorting, improve efficiency, and
                                  reduce costs.

                                  In 1994, the Postal Service established the Address
                                  Management System (AMS) to capture, correct, and
                                  complete address information to enhance the efficiency of
                                  mail processing and delivery through automation. The AMS
                                  captures address information in sort programs used to
                                  process mail in DPS. A developer creates sort programs as
                                  part of the Sort Program System, which is a subsystem of
                                  the National Directory Support System (NDSS). DPS sort
                                  programs are transferred to a Mail Processing Barcode
                                  Sorter or a Delivery Barcode Sorter2 for sorting mail into
                                  DPS.

                                  Mail that cannot be processed on automated equipment
                                  requires manual processing, which is less efficient and more
                                  costly to the Postal Service. As illustrated in Table 1, during
                                  fiscal year (FY) 2005, the Postal Service processed
                                  94 billion pieces of letter mail, of which 72 billion pieces
                                  (76.8 percent) were processed on automated equipment
                                  and the remaining 22 billion pieces (23.2 percent) manually.
                                  During FY 2006, the Postal Service processed 93.3 billion
                                  pieces of letter mail; 74.4 billion pieces (79.7 percent) were
                                  processed on automated equipment and the remaining
                                  18.9 billion pieces (20.3 percent) manually.




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers to change the automation
environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.


                                                        1
Address Management System Information –                                                                DR-AR-07-002
 Southeast Area


                                         Table 1. Postal Service Letter Mail Processed in Pieces
                                                           FYs 2005 and 2006

                                                                                                          Cased
                             Fiscal     DPS Letters     Cased Letters    Total Letters       DPS          Letter
                              Year       (Pieces)         (Pieces)         (Pieces)       Percentage    Percentage
                            2005       72,270,819,511   21,846,660,416   94,117,479,927      76.8          23.2
                            2006       74,404,492,341   18,929,268,976   93,333,761,317      79.7          20.3

                             Source: Postal Service Web-Enabled Enterprise Information System (WebEIS)

                                   In 2003, the Postal Service outlined a strategy to enhance
                                   address quality in its Intelligent Mail Corporate Plan. The
                                   strategy includes improving the address database, filing
                                   change of address orders, and using Address Change
                                   Service. To improve the address database, the Postal
                                   Service established a delivery AMS quality review program
                                   to evaluate the quality of AMS data and meet the goal of
                                   100 percent accurate AMS data nationwide.

                                   As part of the quality review program, the National
                                   Customer Support Center (NCSC) teams annually conduct
                                   street reviews of 40 routes at each Postal Service district
                                   nationwide. The NCSC team selects 40 city or rural delivery
                                   routes based on Postal Service guidelines. For every route
                                   the teams select within a ZIP Code™, they also select two
                                   alternate routes.3

                                   The street reviews:

                                   •   Identify all possible delivery addresses included in
                                       Address Information System products and the NDSS
                                       files.

                                   •   Validate the number of possible delivery addresses
                                       assigned to each carrier route.

                                   •   Validate the correct LOT or delivery sequence for each
                                       carrier route.




3
 The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.


                                                         2
Address Management System Information –                                          DR-AR-07-002
 Southeast Area



                             •   Assign ZIP+4® Codes to maximize compatibility with
                                 automated equipment.

                             •   Verify the standardization of addresses according to
                                 Publication 28, Postal Addressing Standards, dated July
                                 2006.

                             •   Review AMS database products to meet the needs and
                                 expectations of Postal Service customers.

                             When a district scores below 98 percent on the street
                             review, the NCSC team will review every 6 months and
                             districts that score from 98 to 100 percent will receive an
                             annual review. Districts scoring 99 percent or higher may
                             receive abbreviated reviews.

                             In addition to the NCSC street reviews, district AMS officials
                             conduct street reviews of routes to maintain the accuracy of
                             AMS data. Carriers also identify AMS data changes based
                             on their street deliveries. The carriers note address
                             changes in their AMS edit books and submit the information
                             to the AMS district officials using either hard copies or their
                             Web Electronic Edit Sheet for review and correction in the
                             AMS database.

                             As the Postal Service continues to process mail on
                             automated equipment, the quality of address information
                             takes on increased importance. Using correct and complete
                             address information can reduce costs to the Postal Service.

 Objective, Scope, and       Our objective was to assess the Postal Service’s
 Methodology                 management of the delivery AMS quality review results to
                             ensure address information is correct and complete for
                             effective processing and delivery of mail in the Southeast
                             Area. We obtained data on FYs 2005 and 2006 delivery
                             AMS quality reviews from the NCSC to analyze routes
                             reviewed, AMS data errors identified, and performance
                             scores. We selected the Southeast Area’s Central Florida
                             and South Florida Districts and the New York Metro Area’s
                             New York District to perform our reviews, based on the




                                              3
Address Management System Information –                                                               DR-AR-07-002
 Southeast Area



                                   NCSC performance scores identified by delivery AMS
                                   quality review results.4

                                   We obtained and reviewed prior AMS review results for the
                                   New York District, which showed street review performance
                                   scores consistently above 99 percent. As a best
                                   management practice, we evaluated whether the New York
                                   District’s AMS data maintenance program was feasible for
                                   other Postal Service districts. Our review of performance
                                   scores showed that the Central Florida and South Florida
                                   Districts’ FY 2006 scores were below 98 percent. (See
                                   Appendix A.) We evaluated these districts’ AMS data
                                   maintenance process to determine whether they could
                                   improve their programs. We also reviewed these districts’
                                   FY 2006 DPS information to compare their DPS volumes to
                                   the Postal Service goal.5

                                   We conducted this audit from December 2006 through
                                   March 2007 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We discussed our observations and
                                   conclusions with management officials and included their
                                   comments where appropriate. We relied on computer-
                                   processed information from the Postal Service AMS. We
                                   did not audit the system, but performed a limited data
                                   integrity review to determine whether our data were reliable.

    Prior Audit Coverage           The OIG has issued two reports related to our audit
                                   objective.

                                   Address Management Systems – Southwest Area – Rio
                                   Grande District (Report Number DR-AR-06-001, dated
                                   January 25, 2006). The report outlined opportunities to
                                   improve the quality of AMS data and put $988,945 of
                                   processing and delivery funds to better use over the next
                                   10 years. Management agreed with our findings,
                                   recommendations, and the monetary impact of $988,945 in
                                   funds put to better use.

4
  We selected the Central Florida and South Florida Districts based on their street review performance scores on the
FY 2006 quality review (below 98 percent). We selected the New York District based on its historically high
performance scores and improvements to the AMS process. Our baseline was FY 2005; however, we also reviewed
data for districts that received a passing score in FY 2005 but did not in FY 2006. The Central Florida and South
Florida Districts were the only districts that met this criterion.
5
  We plan to conduct a future review to identify opportunities to generate revenue, reduce costs, and improve
customer service. That review will incorporate DPS percentages.


                                                         4
Address Management System Information –                                     DR-AR-07-002
 Southeast Area



                             Address Management System Information – Great Lakes
                             Area (Report Number DR-AR-06-008, dated September 30,
                             2006). The report outlined opportunities to improve the
                             quality of AMS data and put $2,678,506 of processing and
                             delivery funds to better use over the next 10 years.
                             Management agreed with our findings, recommendations,
                             and the monetary impact of $2,678,506 in funds put to
                             better use.




                                            5
Address Management System Information –                                                                  DR-AR-07-002
 Southeast Area

                                              AUDIT RESULTS
    Address Management              Postal Service officials in the Southeast Area’s Central
    System Information              Florida and South Florida Districts effectively managed
    Southeast Area                  Delivery AMS quality review results for approximately
                                    59 percent of their routes.6 While the percentage of routes
                                    reviewed was notable, opportunities exist for area officials to
                                    implement best management practices from the New York
                                    Metro Area’s New York District to improve the quality of
                                    AMS data to process and deliver the mail.

                                    In FY 2006, the Central Florida and South Florida Districts
                                    had 7,217 total routes, as illustrated in Chart 1.7 The NCSC
                                    team reviewed 0.5 percent (40 of 7,217) of these routes
                                    according to Postal Service guidelines. The team
                                    identified 437 AMS errors. The districts did not achieve the
                                    98 percent AMS target goal. (See Appendix A.)8 The
                                    NCSC teams did not review the remaining 99 percent of the
                                    routes (7,177 of 7,217). During this period, officials in the
                                    Central Florida and South Florida Districts and AMS officials
                                    in postal units reviewed another 58.5 percent (4,229 of the
                                    7,217) of the routes. They did not review the remaining 41
                                    percent (2,948 of 7,217) of the routes. (See Appendix B.)

                                                 Chart 1. Central Florida and South Florida Districts
                                                   Number and Percentage of Routes Reviewed


                                                                                          Routes Not
                                                                                          Reviewed
                                                                                            2,948
                                                                                            41%




                                                    Routes
                                                 Reviewed by                                      Routes
                                                District Officials                               Reviewed
                                                      4,229                                      by NCSC
                                                     58.5%                                          40
                                                                                                   0.5%

                                                  Source: Postal Service NCSC and Southeast Area




6
  The 59 percent represents the 4,269 routes reviewed out of the 7,217 total routes for the Central Florida and South
Florida Districts. Central Florida reviewed a total of 3,001 routes and South Florida reviewed a total of 1,268 routes.
(See Appendix B.)
7
  The districts’ routes consist of 6,000 city routes and 1,217 highway contract or rural routes.
8
  To compute a district’s AMS performance score, each error found during a route review is subtracted from the total
number of possible deliveries for the district. This adjusted possible delivery figure is then divided by the district’s
total possible deliveries to arrive at the district’s AMS performance score.


                                                              6
Address Management System Information –                                                                 DR-AR-07-002
 Southeast Area

                                    Based on FY 2006 NCSC team reviews and the error rate
                                    for each route, 33,0569 AMS data errors may exist in these
                                    two districts on the 2,948 routes for which street reviews
                                    were not conducted.

                                    Currently, local AMS officials administer the Southeast
                                    Area’s Central Florida and South Florida Districts’
                                    programs.10 As illustrated in Table 2, during FY 2006, AMS
                                    officials performed quality street reviews for 4,269 routes
                                    using local AMS staff. However, AMS officials did not use
                                    available district resources, such as delivery supervisors or
                                    their designees, to conduct additional street reviews for the
                                    remaining 2,948 routes. District officials stated they did not
                                    review the remaining routes because of limited AMS staff.

                                                Table 2. Southeast Area Route Reviews Conducted in the
                                                        Central Florida and South Florida Districts

                                                                   NCSC       District                    Total
                                                                   Route       Route        Total        Routes
                                      Selected      Total         Reviews     Reviews      Routes          Not
                                      Districts    Routes        Conducted   Conducted    Reviewed      Reviewed

                                      Central        3,752              20        2,981        3,001          751
                                      Florida
                                      South          3,465              20        1,248        1,268        2,197
                                      Florida
                                      Total          7,217              40        4,229        4,269        2,948

                                             Source: Postal Service NCSC and Southeast Area Officials


                                    In addition, the associate supervisor’s training course for
                                    district delivery supervisors did not include specific
                                    information on AMS quality street reviews. The AMS
                                    module of the review course included information on edit
                                    books, but not on quality street reviews.

                                    The Postal Service established AMS to capture, correct,
                                    and complete address information to enhance the efficiency
                                    of mail processing and delivery through automation. AMS

9
  Our projection of the possible number of errors in routes not reviewed is based on the formula NCSC uses in its
street reviews. The error projection for each district is determined by using the number of errors identified in NCSC
street reviews, calculating an error rate per type of route, and applying the rate to the number of routes not reviewed.
The 33,056 projected errors was calculated by adding the following: Central Florida – 7,840 (216 errors ÷ 16 city
routes reviewed = 14 × 560 routes not reviewed); Central Florida – 764 (16 errors ÷ 4 highway contract/rural routes
reviewed = 4 × 191 routes not reviewed); South Florida – 23,122 (212 errors ÷ 19 city routes reviewed = 11 × 2,102
routes not reviewed); and South Florida – 1,330 (14 errors ÷ 1 highway contract/rural route reviewed = 14 × 95 routes
not reviewed).
10
   The Central Florida District’s AMS office consists of the AMS manager and nine AMS specialist positions (seven
full-time and two detailed positions with limited terms). The office also has AMS technicians at local postal units. The
South Florida District’s AMS office consists of the AMS manager and 10 AMS specialist positions (eight full-time and
two detail positions with limited terms). The office also has AMS designees at local postal units.


                                                             7
Address Management System Information –                                                                DR-AR-07-002
 Southeast Area

                                    address information is captured in sort programs used to
                                    process mail in DPS. The Postal Service created DPS to
                                    eliminate manual mail sorting, improve efficiency, and
                                    reduce costs.

                                    As illustrated in Table 3, the Southeast Area districts
                                    improved their DPS mail volume percentages from FY 2005
                                    to FY 2006. According to the Transformation Plan,11 Postal
                                    Service officials are working to achieve 95 percent of letter
                                    mail volume sorted by DPS by 2010. A decrease in AMS
                                    data errors will assist Southeast Area officials in achieving
                                    the DPS goal and will reduce operating costs.

                                                Table 3. Southeast Area Districts’ DPS Percentages

                                                Southeast Area District     Percentage      Percentage
                                                      Locations              FY 2005         FY 2006

                                               Alabama                            81.12            82.10
                                               Atlanta                            77.01            80.53
                                               Central Florida                    81.15            81.44
                                               Mississippi                        85.30            87.01
                                               North Florida                      77.51            79.98
                                               South Florida                      76.11            79.62
                                               South Georgia                      77.70            80.59
                                               Suncoast                           80.76            81.95
                                               Tennessee                          80.90            83.74

                                               Southeast Area Average             79.10            81.34
                                               National Average                   76.79            79.72

                                                                   Source: WebEIS

                                    If the Central Florida and South Florida Districts
                                    implemented a program similar to the New York District’s,
                                    they could reduce AMS errors by 31.84 percent,12 saving
                                    the Postal Service $862,134 over the next 10 years. We will
                                    report $862,134 of funds put to better use in our
                                    Semiannual Report to Congress. (See Appendix C.)

 New York District                  The New York District has a total of 2,202 routes. In FY
                                    2005, the NCSC team reviewed 2 percent (40) of these
                                    routes according to Postal Service guidelines. The team
                                    identified 195 AMS errors (approximately five errors per
                                    route), and the district received a 99.21 percent AMS
                                    performance score from the street review. The NCSC team

11
   United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
12
  The New York Metro Area’s error reduction rate is 71.05 percent, and the control group’s error reduction rate is
29.74 percent. The New York Metro Area’s error reduction rate is divided by the control group’s error reduction rate
(1.7105 ÷1.2974 = 31.84 percent). The expectation is that the Central Florida and South Florida Districts will reduce
their error rates by 31.84 percent by implementing a program similar to the New York District.


                                                          8
Address Management System Information –                                                              DR-AR-07-002
 Southeast Area

                                   did not review the remaining 98 percent (2,162) of these
                                   routes.

                                   In 1998, the New York District began an extensive AMS
                                   quality review program, administered by local AMS officials,
                                   which requires delivery units to complete AMS street
                                   reviews using existing staff. As part of the program, New
                                   York District officials added an AMS review module to the
                                   training course for New York delivery supervisors. In
                                   addition, the New York AMS office established AMS review
                                   schedules for all delivery units and an accountability system
                                   that monitors the completion of AMS street reviews
                                   conducted by delivery supervisors or their designees. As a
                                   result, the New York District used existing staff to
                                   significantly increase its review coverage.

                                   In FY 2005, using the AMS review program, New York
                                   District officials established a goal of reviewing all routes
                                   annually, including routes reviewed by the district and the
                                   NCSC. The existing staff reviewed and implemented
                                   corrective actions for the AMS errors identified. AMS
                                   reviews conducted by delivery unit staff are implemented in
                                   all districts in the New York Metro Area, and the program
                                   has been very successful. Since its inception, all districts
                                   have achieved significant increases in AMS performance
                                   scores. The historical average performance score for the
                                   New York District is 99.03 percent.13

                                   The Deputy Postmaster General and Chief Operating
                                   Officer issued a memorandum dated August 23, 2006, on
                                   AMS national street reviews. The memorandum stated that
                                   trained field personnel would conduct all delivery AMS
                                   street reviews in FY 2007. The AMS national street review
                                   team will not conduct onsite street reviews in FY 2007 and
                                   will not have funding to assist the field with travel costs.
                                   The FY 2007 schedule of delivery AMS street reviews will
                                   be coordinated through area and headquarters address
                                   management officials, and the NCSC will provide street
                                   review materials.




13
   The 99.03 percent is 1.03 percent above the 98 percent passing score. Districts scoring between 98 and 100
percent receive a NCSC street review once a year and districts scoring 99 percent or higher have the option to have
an abbreviated review performed.


                                                         9
Address Management System Information –                                         DR-AR-07-002
 Southeast Area



 Recommendation              We recommend the Vice President, Southeast Area,
                             implement an Address Management System quality review
                             program similar to the New York District’s that:

                             1. Provides training in address management national street
                                reviews to delivery supervisors or their designees.

 Management’s                Management agreed with the recommendation for training
 Comments                    and stated they will train delivery supervisors or appropriate
                             designees on the Address Quality Reporting Tool (AQRT)
                             by the end of FY 2007. Management disagreed with the
                             overall recommendation to implement an AMS quality
                             review program similar to the New York District’s and stated
                             they will begin using the new Address Quality Improvement
                             Process. Management stated that AQRT, which NCSC
                             recently introduced to the field, is better suited to meet
                             Southeast Area requirements and they will implement it in
                             their area by the end of FY 2007. We have included
                             management’s comments, in their entirety, in Appendix D.

 Recommendation              2. Establishes a district schedule of annual Address
                                Management System quality street reviews.

 Management’s                Management agreed with the recommendation to schedule
 Comments                    annual AMS street reviews and stated they will implement
                             and use AQRT by the end of FY 2007 and base their
                             reviews on key indicators that target high impact routes for
                             each district on a continual basis.

 Recommendation              3. Directs delivery supervisors or appropriate designees to
                                review the delivery routes annually.

 Management’s                Management agreed and stated they would train delivery
 Comments                    supervisors or appropriate designees on AQRT by the end
                             of FY 2007 and require them to review targeted routes
                             annually.

 Recommendation              4. Establishes a tracking system to monitor completed
                                street reviews




                                             10
Address Management System Information –                                       DR-AR-07-002
 Southeast Area




 Management’s                Management agreed with the recommendation to establish
 Comments                    a tracking system to monitor completed street reviews and
                             stated they will establish it by May 15, 2007.

 Evaluation of               Management’s comments are responsive to
 Management’s                recommendations 1, 2, 3, and 4. Management’s alternative
 Comments                    actions taken and planned should correct the issues
                             identified in the finding. Although management stated they
                             could not validate the actual savings, we believe the model
                             used to calculate savings (Appendix C) provides a
                             reasonable estimate of costs that could be saved by
                             implementing a program to reduce AMS errors. Since
                             management plans to implement the AQRT, we believe the
                             potential savings are applicable, and we will report
                             $862,134 of funds put to better use in our Semiannual
                             Report to Congress.




                                             11
Address Management System Information –                                                                                 DR-AR-07-002
 Southeast Area

                                                           APPENDIX A

                                               RESULTS OF NCSC REVIEWS
                                               FOR THE SOUTHEAST AREA

                                                       Achieved        Historical
              Southeast Area                             98%           Average       Achieved             Date of     Achieved
                 District      FY 2005     FY 2005     Score in       Score as of      98%      FY 2006   FY 2006   98% Score in
       No.      Locations      Score %    Score Date   FY 2005          FY 2005       Score     Score %    Score      FY 2006

        1    Alabama            98.57      2/14/05       Yes             98.31         Yes       98.09    7/11/06       Yes
        2    Atlanta            99.08      9/20/05       Yes             98.17         Yes       98.50    8/08/06       Yes
        3    Central Florida    98.01      8/30/05       Yes             98.27         Yes       97.87    6/13/06       No
        4    Mississippi        99.51      5/23/05       Yes             97.70         No        98.72    5/01/06       Yes
        5    North Florida      98.85      5/10/05       Yes             98.59         Yes       99.53    6/22/06       Yes
        6    South Florida      98.27      6/13/05       Yes             97.79         No        97.34    2/14/06       No
        7    South Georgia      99.01      4/18/05       Yes             97.40         No        98.53    6/20/06       Yes
        8    Suncoast           98.39      8/22/05       Yes             98.50         Yes       98.38    4/24/06       Yes
        9    Tennessee          98.62      3/28/05       Yes             98.16         Yes       98.66    5/09/06       Yes

                                             Source: Postal Service NCSC officials




                                                                    12
Address Management System Information –                                                                                      DR-AR-07-002
 Southeast Area

                                                                               APPENDIX B

                     FY 2006 ROUTE REVIEWS FOR THE
              CENTRAL FLORIDA AND SOUTH FLORIDA DISTRICTS14


                                                                            80%
                                                          3500
                     Total Number of Routes in District




                                                          3000
                                                                                                                       63%

                                                          2500

                                                          2000                                            37%

                                                          1500                            20%

                                                          1000

                                                           500

                                                             0
                                                                        Central Florida                South Florida

          Total Routes Reviewed                                              3001                          1268
          Total Routes Not Reviewed                                          751                           2197




                                                           Source: Postal Service NCSC and Southeast Area officials




14
     A total of 4,269 routes were reviewed by NCSC and local AMS officials. A total of 2,948 routes were not reviewed.


                                                                                          13
Address Management System Information –                                       DR-AR-07-002
 Southeast Area

                                          APPENDIX C

              CALCULATION OF FUNDS PUT TO BETTER USE
The OIG identified $862,134 in funds put to better use over the next 10 years for the
Central Florida and South Florida Districts.

                                                   Fiscal   Funds Put to
                   Southeast Area Districts         Year     Better Use

                 Central Florida                   2006         $252,590
                 South Florida                     2006          609,544

                 Total for a 10-Year Period                     $862,134

The following assumptions were used to calculate the $862,134.

1.   We used the New York Metro Area as our standard for predicting the cost savings
     possible for the Central Florida and South Florida Districts.

2.   We assumed that all Postal Service areas other than New York Metro had not
     implemented an error reduction program during the period of the AMS street
     reviews. These areas were our control group for estimating the net benefit of the
     New York Metro program.

3.   We used the AMS national street review model to calculate cost savings. We
     assumed that it realistically represented costs that the Postal Service could save by
     implementing a program to reduce AMS errors. However, in our opinion, any costs
     saved would have to be related to a reduction in overtime or casual hours, and
     therefore, labor rates used should be hourly overtime rates (which was not the
     case).

4.   We used the AMS national street review model unchanged, with one exception:
     the model had FY 1999 labor rates imbedded. We updated these rates to reflect
     FY 2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5.   We assumed that the cost of implementing an error reduction program would be
     negligible.

6.   We assumed that the average cost per error for the Central Florida and South
     Florida Districts would remain constant before and after program implementation.

7.   If the Central Florida and South Florida Districts began implementing a program
     immediately, FY 2007 would be devoted to setup and training. We assumed cost
     savings would not begin until FY 2008. Our calculation of savings (funds put to
     better use) is a discounted cash flow analysis over a 10-year period. The amount



                                              14
Address Management System Information –                                         DR-AR-07-002
 Southeast Area

     we will report in our Semiannual Report to Congress is the present value of the
     estimated savings over the next 10 years.

8.   AMS errors can never be reduced to zero. We assumed the practical lower limit to
     be a 1 percent error rate. However, this constraint did not affect the calculation for
     the Central Florida and South Florida Districts.

9.   We assumed that error rates on rural routes would respond to an error reduction
     program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District
    because of uncertainties regarding implementation of an error reduction program in
    that district.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                             15
Address Management System Information –              DR-AR-07-002
 Southeast Area

                 APPENDIX D. MANAGEMENT’S COMMENTS




                                          16
Address Management System Information –        DR-AR-07-002
 Southeast Area




                                          17
